                       AUDIT REPORT


Topeka, KS, Material
Distribution Center –
Information Technology
General Controls
  June 11, 2014




                  Report Number IT-AR-14-006
                                                                      HIGHLIGHTS
                                                                         June 11, 2014
                                            Topeka, KS, Material Distribution Center –
                                            Information Technology General Controls
                                                         Report Number IT-AR-14-006
BACKGROUND:
In June 2013, the U.S. Postal Service         Additionally, management did not use a
completed consolidation of all print          reliable badge system for accessing the
operations into the National Print Center     administrative building, monitor
in the administrative building at the         personnel access privileges, or put
Topeka, KS, Material Distribution             alarms on emergency doors that provide
Center. As a result of this cost-cutting      access to computer assets in the
measure, the National Print Center now        building’s warehouse area. In addition,
processes about 192,000 payroll checks        management did not have procedures in
and 107,000 vendor checks per month           place for granting and monitoring
(totaling about $468 million), as well as     employee access to the check printing
earnings and Express Mail corporate           system or provide security training for
account statements.                           employees with access to the system.

In addition to the print operations,          Management considered the key
the Material Distribution Center’s            inventory and alarms on the emergency
administrative building maintains a           doors to be low priorities. Also, officials
computer server room that supports            were unaware of procedures related to
systems that manage vehicles,                 user access reviews and security
warehousing, inventory, and equipment.        training. Not adhering to information
                                              security controls increases the risk of
Our objective was to determine whether        unauthorized individuals accessing
general security controls pertaining to       sensitive information, including
physical access, contingency planning,        employees’ names, addresses, and
security management, and segregation          identification numbers.
of duties at the center’s administrative
building provide reasonable assurance         WHAT THE OIG RECOMMENDED:
that computer assets, processed payroll       We recommended management
data, and vendor data are secure.             complete a physical key review, rekey
                                              certain areas, and better restrict access
WHAT THE OIG FOUND:                           to the administrative building. Further,
Contingency planning and segregation          we recommended management
of duties were adequate; however,             periodically review employee access to
security controls related to physical         the server room and check printing
access and security management were           system. Finally, we recommended
not in place to protect computer assets       management provide information
and data at the center’s administrative       security training to all employees with
building. Specifically, management did        access to computer assets and data.
not conduct physical key reviews or
maintain a key inventory as required.         Link to review the entire report
June 11, 2014

MEMORANDUM FOR:            JOHN T. EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY

                           SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Finance and Supply Management

SUBJECT:                   Audit Report – Topeka, KS, Material Distribution
                           Center − Information Technology General Controls
                           (Report Number IT-AR-14-006)

This report presents the results of our audit of the Topeka, KS, Material Distribution
Center's Information Technology General Controls (Project Number 14BG002IT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sean D. Balduff, acting
director, Information Technology, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Topeka, KS, Material Distribution Center –                                                                          IT-AR-14-006
 Information Technology General Controls



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Physical Security ............................................................................................................. 2

Logical Access Security .................................................................................................. 4

Information Security Training .......................................................................................... 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Management's Comments .......................................................................... 9
Topeka, KS, Material Distribution Center –                                                            IT-AR-14-006
 Information Technology General Controls



Introduction

This report presents the results of our self-initiated audit of the Topeka, KS, Material
Distribution Center (MDC) − Information Technology (IT) General Controls (Project
Number 14BG002IT000). Our objective was to determine whether general controls
pertaining to physical access, security management, contingency planning, and
segregation of duties at the MDC’s administrative building 1 provide reasonable
assurance that computer assets2 and processed payroll and vendor data are secure.
See Appendix A for additional information about this audit.

The Topeka MDC provides parts, equipment, and supplies to all U.S. Postal Service
facilities. In 1975, the Postal Service added the Label Printing Center (LPC) to the
Topeka MDC and, in June 2013, changed the name from the LPC to the NPC to reflect
the consolidation of all print operations into the new center. The NPC now carries out all
print functions, such as processing payroll and vendor checks, earning statements, and
Express Mail corporate account (EMCA) statements using the Ricoh Process Director
(RPD or check printing) system. 3 The 35 employees working at the NPC process
about 192,000 payroll checks and 107,000 vendor checks per month, totaling about
$468 million.

In addition to print operations, the MDC’s administrative building maintains a computer
server room that supports the Material Distribution and Inventory Management System
(MDIMS) 4 and the Solution for Enterprise Asset Management (SEAM). 5

The U.S. Postal Inspection Service performs site reviews to address physical security
controls at Postal Service facilities. The Postal Inspection Service last reviewed security
controls at the Topeka MDC in March 2012.

Conclusion

Contingency planning and segregation of duties were adequate; however, security
controls related to physical access and security management were not in place to
protect computer assets and data at the MDC’s administrative building. Specifically,
management did not conduct physical key reviews or maintain a key inventory as
required. Additionally, management did not use a reliable badge system for accessing
the administrative building, monitor personnel access privileges, or put alarms on

1
  The administrative building contains the administrative offices, the National Print Center (NPC), and the center’s
computer server room.
2
  Computer assets include desktop and laptop computers, printers, and servers.
3
  The RPD system automates the printing function for multiple types of documents such as employee and vendor
checks, employee earning statements, and EMCA statements.
4
  MDIMS is used to perform material distribution, warehousing, and inventory management business functions for the
Postal Service. MDIMS helps manage inventory for a catalog of items and provides material support for customers.
5
  SEAM provides inventory management and supply chain planning, and manages and services installed equipment
and deployed vehicles.
                                                            1
Topeka, KS, Material Distribution Center –                                                         IT-AR-14-006
 Information Technology General Controls


emergency doors that provide access to computer assets in the building’s warehouse
area.

Management officials did not take these security precautions because they considered
conducting the physical key inventory and installing alarms on the emergency doors to
be low priorities. Further, management officials were unaware of specific procedures
related to user access reviews and security training. Not adhering to information
security controls increases the risk unauthorized individuals will access Postal Service
IT assets and information, including employees’ names, addresses, and identification
numbers.

Physical Security

We identified the following areas where physical access controls were not established
or were not functioning as intended:

   Management had no record of conducting a physical key review and did not
    maintain a current physical key inventory. Instead, management kept all of the spare
    building keys in a coffee can and a plastic tub. This occurred because management
    considered conducting the physical key inventory to be to be a low priority. Postal
    Service policy 6 requires management to conduct a semiannual review of all physical
    keys and maintain an accurate inventory. During our audit, we observed
    management initiating the process to identify and account for the center’s spare
    keys.

   Management uses an obsolete and unreliable badge system to restrict physical
    access to the facility, including areas where computer assets are stored. Specifically:

    o The badge system is running on a computer using an operating system the
      vendor no longer supports. In addition, management could not find new parts for
      the system when repairs were needed and purchased used replacement parts
      from eBay.

    o Periodically, management relies on a spreadsheet to verify access lists because
      accounts were lost during a power interruption.

    Budget constraints prevented management from updating or replacing the current
    badge system and managers did not document their acceptance of risk for using an
    outdated access system.

   Management did not review the access control list for individuals with physical
    access to the computer server room, as required. The current IT manager was



6
 Administrative Support Manual 13, Section 273.461, Key and Access Control Device Accountability, and Section
464, Key Survey, updated November 28, 2013.


                                                       2
Topeka, KS, Material Distribution Center –                                                              IT-AR-14-006
 Information Technology General Controls


    unaware that Postal Service policy 7 requires designated IT managers to review
    access control lists quarterly.

   Management did not install alarms on three emergency exit doors that provide
    access to those administrative building warehouse areas containing IT assets.
    Figure 1 shows computers and printers near emergency exit doors that lead to a
    public parking lot. Management did not think this represented an immediate threat or
    vulnerability. Postal Service policy 8 states that it must protect its information
    resources 9 against damage, unauthorized access, and theft in the Postal Service
    environment. During our audit, management placed an order for new alarm systems
    and installed them on the emergency doors on January 16, 2014; therefore, we are
    not making a recommendation related to this issue.

                                        Figure 1. IT Assets at Risk




     Source: U.S. Postal Service Office of Inspector General (OIG) photographs taken December 17, 2013.

The Postal Inspection Service also identified these physical security issues during a
March 2012 site review. When management officials do not adhere to physical access
control policies, there is an increased risk that unauthorized individuals may obtain
access to Postal Service assets.

7
  Handbook AS-805, Information Security, Section 7-2.4, Establishment of Access Control Lists, dated March 2014.
8
  Handbook AS-805, Section 7-3, Physical Protection of Information Resources.
9
  Information resources are all Postal Service information assets, including information systems, hardware, software,
data, applications, telecommunications networks, computer-controlled mail processing equipment, and related
resources and the information they contain.


                                                          3
Topeka, KS, Material Distribution Center –                                                            IT-AR-14-006
 Information Technology General Controls


Logical Access Security

Management did not periodically review user access to the RPD system. The RPD
system is not part of the eAccess System; 10 therefore, managers did not receive
notification to perform the periodic access review. Postal Service policy 11 states that
managers must review access granted to personnel under their supervision to ensure
they still need the access to perform their duties. When there is no formal process for
reviewing user access to Postal Service systems, there is an increased risk that
unauthorized individuals may have access to sensitive information, such as an
employee’s name, address, and identification number.

During our audit, management began reviewing user access by taking steps to add the
RPD system to the eAccess system. We reviewed the RPD user list on
February 12, 2014, and determined management removed 26 inactive accounts.

Information Security Training

Management did not always provide information security training to employees with
access to sensitive Postal Service information resources. Specifically, none of the nine
employees with “operator” 12 access to the RPD system received information security
training because the MDC manager thought only managers needed this training. Postal
Service policy 13 states that all personnel with access to Postal Service information
resources must participate in annual information security training. Users who do not
receive this training may not be aware of their responsibilities or the actions they can
take to protect the Postal Service’s information.

Recommendations

We recommend the vice president, Supply Management, direct the manager, Operating
Asset Fulfillment, to:

1. Perform a physical key review and maintain an accurate key inventory for the
   Topeka Material Distribution Center's administrative building.

2. Rekey doors to those areas in the Material Distribution Center's administrative
   building with keys that are unaccounted for based on the physical key review.

3. Develop an action plan to update the badge access system or other reliable
   compensating controls to restrict access to the Material Distribution Center's
   administrative building.



10
   The system is used to request and approve access to Postal Service applications.
11
   Handbook AS-805, Section 9-3.2.5, Periodic Review of Access Authorization.
12
   Operator access allows a person to perform certain functions such as enabling, disabling, and changing computer
job scheduling properties.
13
   Handbook AS-805, Section 6-5.3, Training Requirements – Annual Training.


                                                         4
Topeka, KS, Material Distribution Center –                                     IT-AR-14-006
 Information Technology General Controls


4. Develop a process to ensure required user access to the Ricoh Process Director
   application is periodically validated and documented.

5. Provide information security training annually to all personnel with access to Postal
   Service information resources at the Topeka Material Distribution Center’s
   administrative building.

We recommend the vice president, Information Technology, direct the manager,
Systems Solutions, to:

6. Perform quarterly reviews of individuals with access to the Topeka Material
   Distribution Center's computer server room.

Management’s Comments

Management agreed with the findings and with recommendations 1 through 4 and 6,
and partially agreed with recommendation 5.

In response to recommendation 1, management performed a complete physical key
review and inventoried, documented, and secured all excess keys. Management plans
to continue periodic physical key reviews.

In response to recommendation 2, management rekeyed all required doors in the
administrative area of the MDC.

In response to recommendation 3, management completed a risk assessment of the
badge access system with the assistance of the Postal Inspection Service. The
assessment concluded the badge access system was functioning but a reassessment
will be needed if system replacement parts become unavailable. Management instituted
compensating controls to restrict access to the MDC’s administrative building.

In response to recommendation 4, management added the RPD to the Postal Service’s
eAccess System. Employees are required to request and receive approval to use this
system and it provides for periodic reviews to validate the need for access.

In response to recommendation 5, management stated that information security training
is not available for bargaining unit employees but agreed non-bargaining employees
should be trained; therefore, management will issue a communication to all non-
bargaining employees at the Topeka MDC to complete annual security awareness
training by July 31, 2014.

In response to recommendation 6, management reviewed the records of individuals with
access to the Topeka MDC’s computer room in conjunction with the compensating
controls instituted in recommendation 3. Management will continue these reviews
quarterly.




                                             5
Topeka, KS, Material Distribution Center –                                    IT-AR-14-006
 Information Technology General Controls


See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. The OIG considers
recommendation 3 significant. Since we concur with the actions taken,
recommendation 3 can be closed in the Postal Service’s follow-up tracking system with
the issuance of this report.




                                             6
Topeka, KS, Material Distribution Center –                                                               IT-AR-14-006
 Information Technology General Controls



                                 Appendix A: Additional Information

Background

The Topeka MDC provides parts, equipment, and supplies support to all Postal Service
facilities, including facilities in Hawaii, the Caribbean Islands, and Alaska. The MDC’s
mission is to warehouse and distribute repair parts and supplies in an accurate,
responsive, cost-effective, and consistent manner. The warehouse facility contains
about 950,000 square feet of floor space that accommodates 26,000 items.

In June 2013, the Postal Service completed the final stage of a three-phase project to
reduce its printing costs. As a result, the Postal Service changed the LPC's 14 name to
the NPC to reflect the consolidation of all print operations into the new center. The NPC
also maintains the RPD system used to print jobs from the mainframe. RPD automates
the printing function for payroll, vendor payments, and employee earning statements.

Objective, Scope, and Methodology

Our objective was to determine whether general controls pertaining to physical access,
security management, contingency planning, and segregation of duties at the Topeka
MDC’s administrative building provide reasonable assurance that computer assets and
processed payroll and vendor data are secure.

To meet our objective, we reviewed relevant security policies and procedures and
interviewed Postal Service management and other IT staff as necessary. We obtained
and reviewed documents related to the controls listed above and observed operations
at the facility. In addition, we observed and evaluated physical security controls at the
facility.

We conducted this performance audit from November 2013 through June 2014, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on May 13, 2014, and included their
comments where appropriate.

We did not assess the reliability of any computer-processed data for the purposes of
this report. The computer-processed data analyzed during the audit provided the
context for the environment audited and did not significantly affect the findings,
conclusion, or recommendations in this report.

14
  In support of mail processing automation initiatives for postal and mailer operations, the Postal Service formed the
LPC in 1975. It consolidated six printing centers across the U.S.


                                                           7
Topeka, KS, Material Distribution Center –                                        IT-AR-14-006
 Information Technology General Controls



Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              8
Topeka, KS, Material Distribution Center –                      IT-AR-14-006
 Information Technology General Controls



                            Appendix B: Management's Comments




                                             9
Topeka, KS, Material Distribution Center –        IT-AR-14-006
 Information Technology General Controls




                                             10
Topeka, KS, Material Distribution Center –        IT-AR-14-006
 Information Technology General Controls




                                             11
